October 5, 2020

Via Electronic Filing
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
RE:

Maggy Hurchalla v. Lake Point Phase I, LLC, et al., No. 20-332
Unopposed Motion to Extend Time to Respond to Petition for Writ of
Certiorari

Pursuant to Supreme Court Rule 30.4, Respondents Lake Point Phase I, LLC, and Lake
Point Phase II, LLC, respectfully move for an extension of time to file their response to Appellant,
Maggy Hurchalla’s Petition for Writ of Certiorari in Hurchalla v. Lake Point Phase I, LLC, et al.,
Docket No. 20-332, for an additional thirty days, until November 13, 2020.
Counsel for Ms. Hurchalla does not object to the requested relief.
The Florida Supreme Court denied Ms. Hurchalla’s petition on April 13, 2020. Due to this
Court’s March 19, 2020 Covid-19 Order, the deadline for Ms. Hurchalla to file her petition to this
Court was extended. On September 10, 2020, Ms. Hurchalla filed her petition, which was docketed
by this Court on September 14, 2020.
Ms. Hurchalla’s petition raises several factual claims that require counsel for Lake Point
to fully review the underlying trial transcript and record to prepare Lake Point’s response. Further,
although not discussed in Ms. Hurchalla’s petition, there are preservation issues that Lake Point
must raise in its response.
Due to the above, and the schedules of Lake Point’s counsel, including the due date of
other briefs in mid-October, and previously scheduled hearings and arguments in early October,
Lake Point respectfully requests an extension of time to file its response to Ms. Hurchalla’s Petition
for Writ of Certiorari until November 13, 2020.

By: /s/ Chris W. Altenbernd
Chris W. Altenbernd

Florida Bar No: 197394
Counsel of Record for Respondent
BANKER LOPEZ GASSLER P.A.
TAMPA • ST. PETERSBURG • ORLANDO •FORT MYERS • TALLAHASSEE • FORT LAUDERDALE
501 E. KENNED B LVD., SUITE 1700, TAMPA, FL 33602
TELEPHONE (813) 574-8562 • FAX (813) 222-3066

Clerk of the Court
Supreme Court of the United States
October 5, 2020
Page 2

cc:

Jamie Gorelick (Counsel for Petitioner)
David Lehn (Counsel for Petitioner)
David Ogden (Counsel for Petitioner)
Jon P. Tasso (Co-Counsel for Respondent)

BANKER LOPEZ GASSLER, P.A.
TAMPA • ST. PETERSBURG • FORT MYERS • TALLAHASSEE • ORLANDO • FORT LAUDERDALE
501 E. KENNED B LVD., SUITE 1700, TAMPA, FL 33602
TELEPHONE (813) 574-8562 • FAX (813) 222-3066

